92 Exchange Street
Portland, Maine 04101
23 Water Street, Bangor, Maine 04401
1-207-874-0905
1-207-874-0343 (fax)
www.MaineEmployeeRights.com

March 23, 2021
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: O’Reilly Auto Enterprises, LLC v. Bell, No. 20-1224
Dear Mr. Harris:
I represent the Respondent in this case. The petition for a writ of certiorari was filed on
March 1, 2021, and docketed on March 5, 2021. Respondent’s brief in opposition is due, without
extension, on April 5, 2021. Pursuant to Rule 30.4, I respectfully request that the Court extend
the deadline to file a brief in opposition to the petition to May 10, 2021. The extension is
necessary in light of the press of other business including proximate due dates in numerous other
cases.
The Petitioner consents to this extension.
Thank you for your attention to this matter.
Sincerely,
/s/ Allan K. Townsend

cc: counsel of record for petitioner

Allan K. Townsend

